Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Juvenile Justice and Delinquency Prevention National Training and Technical Assistance Project Grant Awarded to the National Court Appointed Special Advocate Association Grant Number 2002-CH-BX-K001Seattle, Washington

Report No. GR-90-04-004


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the National Training and Technical Assistance Project grant awarded by the U.S. Department of Justice, Office of Juvenile Justice and Delinquency Prevention (OJJDP) to the National Court Appointed Special Advocate Association (NCASAA) located in Seattle, Washington.  The purpose of this grant was to support the NCASAA in providing training and technical assistance to its network of local programs across the nation.  As of April 2, 2002, the NCASAA was awarded a total of $3,823,500 to promote and enhance the highest possible volunteer representation of children by establishing methods and measures of consistency, quality and cultural sensitivity in the management of Court Appointed Special Advocate/ Guardian ad Litem (CASA/GAL) programs.  These activities were designed to develop quality guidelines for state organizations and to provide the CASA Outcomes Management Evaluation Tool (COMET) software application with data collection and management, which guides programs in evaluating program effectiveness.
We tested the NCASAA's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant. 
We found the NCASAA to be in compliance with OJJDP's grant requirements.  Our audit revealed that adequate controls were taken over the accounting process and records relating to the grant.  We determined that costs claimed for reimbursement were allowable, supported and in accordance with applicable laws, regulations, guidelines and terms and conditions of the grant.
Our audit objectives, scope, and methodology appear in the Appendix.